May 17, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Medicaid Rates for New York State-Operated Developmental Centers May Be
               Excessive (A-02-11-01029)


The attached final report provides the results of our review of Medicaid payment rates for New
York State developmental centers.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-02-11-01029 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    MEDICAID RATES FOR
 NEW YORK STATE-OPERATED
  DEVELOPMENTAL CENTERS
     MAY BE EXCESSIVE




                       Daniel R. Levinson
                        Inspector General

                           May 2012
                         A-02-11-01029
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In New York State (the State), the Office for People With Developmental Disabilities (OPWDD)
provides services to both Medicaid and non-Medicaid eligible beneficiaries with intellectual and
developmental disabilities under a cooperative agreement with the Department of Health (DOH),
which administers the State’s Medicaid program. OPWDD oversees Intermediate Care Facilities
(ICF) for individuals with intellectual and developmental disabilities. ICFs include State- and
privately operated facilities with 30 or fewer beds and State-operated facilities with more than 30
beds. During our audit period, the State operated 13 facilities with more than 30 beds and 2
Small Residential Units on the campus of 1 of these facilities that provided services to
individuals with intellectual and developmental disabilities. For reporting purposes, we refer to
these 15 facilities as “developmental centers.” We refer to ICFs with 30 or fewer beds as “State-
operated ICFs” or “privately operated ICFs.”

For State fiscal year (SFY) 2009, DOH claimed Medicaid reimbursement on behalf of 1,688
beneficiaries at developmental centers totaling $2,266,625,233 ($1,133,312,609 Federal share).
The State’s actual costs for the developmental centers totaled $577,684,725.

Developmental center payment rates are set using a complex methodology detailed in the State’s
Medicaid State plan. The rate is currently calculated by using a starting point that the State
describes as “total reimbursable operating costs,” which includes the prior year’s total
reimbursable operating costs, a volume variance adjustment, and a trend factor increase. Total
reimbursable operating costs do not reflect the State’s actual costs. The rate-setting
reimbursement methodology for the developmental centers was originally approved in
January 1986, retroactive to April 1984. Since then, the State has received CMS approval for
more than 35 State plan amendments related to this methodology.

Section 1902(a)(30)(A) of the Act requires that payment for services be consistent with
efficiency, economy, and quality of care.

OBJECTIVE

Our objective was to determine whether the payment rate for developmental centers met the
Federal requirement that payment for services be consistent with efficiency and economy.




                                                 i
SUMMARY OF FINDINGS

Based on our assessment of the State’s rate-setting methodology, we determined that the
payment rate for developmental centers might not have met the Federal requirement that
payment for services be consistent with efficiency and economy. Specifically, the growth of the
daily Medicaid reimbursement rate for the developmental centers has significantly outpaced
those of both State-operated and privately operated ICFs—from $195 per day in SFY 1985 to
$4,116 per day in SFY 2009, which is the equivalent of $1.5 million per year for one Medicaid
beneficiary. This rate is more than nine times the average rate for all other ICFs for the same
period. If the State had used actual costs in calculating the Medicaid daily rate for
developmental centers, its reimbursement would have totaled $858 million ($429 million Federal
share) in SFY 2009, a difference of $1.41 billion ($701 million Federal share). If the State had
used prior year actual costs as the starting point for its rate-setting methodology, its SFY 2009
Medicaid daily rate would have been $1,532, or 63 percent less than the calculated
reimbursement rate ($4,116).

We also determined that the array of services provided to residents of a privately operated ICF
was comparable to the array of services provided to residents of a nearby developmental center;
however, the developmental center’s Medicaid reimbursement rate was nearly 10 times that of
the privately operated ICF.

This growth occurred because CMS did not adequately consider the impact of State plan
amendments on the developmental centers’ Medicaid daily rate. Specifically, CMS approved
more than 35 State Plan Amendments related to the ICF rates, including some that pertained only
to developmental centers. CMS reviewed the proposed amendments and, in some cases, asked
the State for additional information to address concerns CMS had about the rate-setting
methodology. However, CMS’s efforts did not prevent the rate from increasing to its current
level, which might not be consistent with efficiency and economy.

RECOMMENDATION

We recommend that CMS work with the State to ensure that the State’s Medicaid daily rate for
developmental centers meets the Federal requirement that payment for services be consistent
with efficiency and economy. Use of such a rate might have saved the Federal Medicaid
program approximately $701 million in SFY 2009.

DEPARTMENT OF HEALTH AND
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, DOH stated that it, along with OPWDD, agreed to work
with CMS to ensure that the State’s Medicaid daily rate for developmental centers meets the
Federal requirement that payment for services be consistent with efficiency and economy. In
separate comments, CMS concurred with our recommendation and stated that it was working
with State officials to develop a revised payment methodology that will result in developmental
center payment rates that are consistent with efficiency and economy. DOH’s and CMS’s
comments are included in their entirety as Appendixes B and C, respectively.

                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
            Medicaid Program ..................................................................................................... 1
            New York State’s Medicaid Program ....................................................................... 1
            Intermediate Care Facilities in New York State ....................................................... 1
            Developmental Center Payment Rates...................................................................... 2
            Federal Requirement ................................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
            Objective ................................................................................................................... 2
            Scope ........................................................................................................................ 2
            Methodology ............................................................................................................. 3

FINDINGS AND RECOMMENDATION.............................................................................. 4

          DAILY MEDICAID RATE FOR DEVELOPMENTAL CENTERS MIGHT
           NOT HAVE MET THE FEDERAL REQUIREMENT THAT PAYMENT
           FOR SERVICES BE CONSISTENT WITH EFFICIENCY AND ECONOMY ........ 4
            Growth of the Daily Medicaid Reimbursement Rate for
              Developmental Centers Has Significantly Outpaced Those of Both
              State-Operated and Privately Operated Intermediate Care Facilities .................... 4
            State Claimed Significantly More for Developmental Center Services
             Than Its Actual Costs .............................................................................................. 5
            Privately Operated Intermediate Care Facilities Providing Comparable Services in
             Similar Locations Had Significantly Lower Reimbursement Rates ....................... 6
            Rate Setting Methodology Significantly Inflates Medicaid Daily Rate for
             Developmental Centers ........................................................................................... 7
            Centers for Medicare & Medicaid Services Did Not Adequately Consider
             the Impact of State Plan Amendments on the Medicaid Daily Rate for
             Developmental Centers ........................................................................................... 8

          POTENTIAL COST SAVINGS ..................................................................................... 8

          RECOMMENDATION .................................................................................................. 8

          DEPARTMENT OF HEALTH AND
          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ................... 8




                                                                     iii
APPENDIXES

    A: CALCULATION OF THE STATE FISCAL YEAR 2009
        MEDICAID DAILY RATE

    B: DEPARTMENT OF HEALTH COMMENTS

    C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                iv
                                          INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. States
with a lower per capita income relative to the national average are reimbursed a greater share of
their costs. States with a higher per capita income are reimbursed a lesser share. By law, the
FMAP rates cannot be lower than 50 percent. Although FMAPs are adjusted annually for
economic changes in the States, Congress may increase FMAPs at any time.

New York State’s Medicaid Program

In New York State (the State), the Office for People With Developmental Disabilities (OPWDD)
provides services to both Medicaid and non-Medicaid eligible individuals (beneficiaries) with
intellectual and developmental disabilities under a cooperative agreement with the Department of
Health (DOH), which administers the State’s Medicaid program. 1 DOH uses the Medicaid
Management Information System (MMIS), a computerized payment and information reporting
system, to process and pay Medicaid claims.

Intermediate Care Facilities in New York State

OPWDD oversees Intermediate Care Facilities (ICF) for individuals with intellectual and
developmental disabilities. These facilities are residential treatment options designed for
individuals whose disabilities severely limit their ability to live independently. ICFs provide
24-hour onsite assistance and training, intensive clinical and direct-care services, supervised
activities, and a variety of therapies. Developmental and intellectual disabilities include a variety
of conditions that cause mental or physical limitation (e.g., autism, cerebral palsy).

ICFs include State-operated and privately operated facilities with 30 or fewer beds and State-
operated facilities with more than 30 beds. During our audit period, the State operated 13
facilities with more than 30 beds and 2 Small Residential Units (SRU) on the campus of 1 of
these facilities that provided services to individuals with intellectual and developmental

1
 In July 2010, the Office of Mental Retardation and Developmental Disabilities (OMRDD) was renamed OPWDD.
We refer to it throughout this report as OPWDD.

                                                    1
disabilities. 2 For reporting purposes, we refer to these 15 facilities as “developmental centers.”
We refer to ICFs with 30 or fewer beds as “State-operated ICFs” or “privately operated ICFs.”

For State fiscal year (SFY) 2009, DOH claimed Medicaid reimbursement on behalf of 1,688
beneficiaries at developmental centers totaling $2,266,625,233 ($1,133,312,609 Federal share).
The State’s actual costs 3 for the developmental centers totaled $577,684,725.

Developmental Center Payment Rates

Developmental center payment rates are set using a complex methodology detailed in
Attachment 4.19-D, Part II, of the State’s Medicaid State plan. The attachment sets forth the
methods and standards for establishing the rates. The rate is currently calculated by using a
starting point that the State describes as “total reimbursable operating costs,” which includes the
prior year’s total reimbursable operating costs, a volume variance adjustment, and a trend factor
increase. As a result, total reimbursable operating costs do not reflect the State’s actual costs.
The rate-setting reimbursement methodology for the developmental centers was originally
approved in January 1986, retroactive to April 1984. Since then, the State has received CMS
approval for more than 35 State plan amendments (SPA) related to this methodology.

Federal Requirement

Section 1902(a)(30)(A) of the Act requires that payment for services be consistent with
efficiency, economy, and quality of care.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the payment rate for developmental centers met the
Federal requirement that payment for services be consistent with efficiency and economy.

Scope

Our audit period covered daily payments for Medicaid beneficiaries residing in developmental
centers for the period April 1, 2008, through March 31, 2009 (SFY 2009). Our review covered
23,024 claims for 1,688 beneficiaries, totaling $2,266,625,233 ($1,133,312,609 Federal share),
submitted by DOH for Federal reimbursement.

We did not review the overall internal control structure of CMS, DOH, OPWDD, or the
Medicaid program. Rather, we limited our internal control review to those controls related to

2
  Although the 2 SRUs each have only a 12-bed capacity, they received the same Medicaid payment rate as the 13
facilities with more than 30 beds. Additionally, cost information supplied by the State for these facilities included
costs associated with the two SRUs.
3
 We relied on cost information provided by the State to us and CMS. Throughout the report, we refer to these costs
as “actual costs.”

                                                           2
our objective. We did not verify the accuracy of the actual cost information provided by the
State.

We performed fieldwork at CMS’s, DOH’s, and OPWDD’s offices in Albany, New York, at the
MMIS fiscal agent in Rensselaer, New York, and at a developmental center and a privately
operated ICF in Brooklyn, New York, from May through September 2011.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations and the Medicaid State plan;

    •   held discussions with CMS, DOH, and OPWDD officials to gain an understanding of the
        State’s rate-setting methodology;

    •   ran computer programming applications at the MMIS fiscal agent that identified all
        payments for developmental center services 4 for SFY 2009;

    •   interviewed officials from the largest developmental center—Brooklyn Developmental
        Center (BDC)—to gain an understanding of how a developmental center is managed and
        its procedures for claiming Medicaid reimbursement;

    •   interviewed officials from a privately operated ICF to gain an understanding of the
        facility’s operations and procedures for claiming Medicaid reimbursement;

    •   recalculated the SFY 2009 Medicaid daily rate for developmental centers using
        SFY 2008 actual costs provided by the State;

    •   compared the developmental center payment rate to payment rates for all State-operated
        and privately operated ICFs for SFY 2009;

    •   compared the growth rate of the developmental center payment rate to selected State-
        operated and privately operated ICFs, based on their geographic proximity to each other; 5
        and

    •   compared the number of beneficiaries and types of services provided at BDC with those
        at a privately operated ICF.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

4
 Specifically, we used rate codes 4100 (State Operated Office of Mental Retardation Developmental Center) and
4102 (OMRDD State Operated ICFs/Developmentally Disabled SRU).
5
 Specifically, we compared the developmental center payment rate to those for a privately operated ICF in Rock
Hill, New York, a privately operated ICF in Brooklyn, and a State-operated ICF in Staten Island, New York.

                                                        3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATION

Based on our assessment of the State’s rate-setting methodology, we determined that the
payment rate for developmental centers might not have met the Federal requirement that
payment for services be consistent with efficiency and economy. Specifically:

    •   The growth of the daily Medicaid reimbursement rate for developmental centers has
        significantly outpaced those of both State-operated and privately operated ICFs.

    •   The State claimed significantly more for developmental center services than its actual
        costs.

    •   Privately operated ICFs providing comparable services in similar locations had
        significantly lower reimbursement rates than that of developmental centers.

This growth occurred because the State’s rate-setting methodology significantly inflated the
Medicaid daily rate for developmental centers, and CMS did not prevent the rate from increasing
to its current levels.

If CMS had ensured that the State’s rate-setting methodology for developmental centers resulted
in a rate that was consistent with efficiency and economy, the Federal Government might have
saved approximately $701 million in SFY 2009.

DAILY MEDICAID RATE FOR DEVELOPMENTAL CENTERS MIGHT NOT HAVE
MET THE FEDERAL REQUIREMENT THAT PAYMENT FOR SERVICES BE
CONSISTENT WITH EFFICIENCY AND ECONOMY

Growth of the Daily Medicaid Reimbursement Rate for Developmental Centers Has
Significantly Outpaced Those of Both State-Operated and Privately Operated
Intermediate Care Facilities

The daily rate for a Medicaid beneficiary to reside in a developmental center grew from $195 per
day in SFY 1985 to $4,116 per day in SFY 2009, which is the equivalent of $1.5 million per year
for one Medicaid beneficiary. 6 The developmental center rate was more than nine times the
average rate for all other State-operated and privately operated ICFs for the same period. The
daily rates for all other State-operated and privately operated ICFs, which are based on actual
costs, ranged from $257 to $902 during the same period, with an average rate of $444.




6
 The daily Medicaid rate has since increased to $5,118, or $1.9 million per year, for one Medicaid beneficiary for
SFY 2011.

                                                         4
We compared the growth of the Medicaid daily rate for developmental centers to the rates of one
State-operated and two privately operated ICFs. As illustrated in the graph, the growth of the
daily Medicaid reimbursement rate for developmental centers since 1985 has significantly
outpaced those of the selected State- and privately operated ICFs.

    Graph: Medicaid Daily Rate for Selected Intermediate Care Facilities (1985-2009)

                   Rock Hill ICF (privately operated)                                                               Brooklyn ICF (privately operated)

                   Staten Island ICF (State-operated)                                                               Developmental Centers
  $4,500


  $4,000


  $3,500


  $3,000


  $2,500


  $2,000


  $1,500


  $1,000


    $500


      $0
           1985
                  1986
                         1987
                                1988
                                       1989
                                              1990
                                                     1991
                                                            1992
                                                                   1993
                                                                          1994
                                                                                 1995
                                                                                        1996
                                                                                               1997
                                                                                                      1998
                                                                                                             1999
                                                                                                                    2000
                                                                                                                           2001
                                                                                                                                  2002
                                                                                                                                         2003
                                                                                                                                                2004
                                                                                                                                                       2005
                                                                                                                                                              2006
                                                                                                                                                                     2007
                                                                                                                                                                            2008
                                                                                                                                                                                   2009




State Claimed Significantly More for Developmental Center Services Than Its Actual Costs

In SFY 2009, the State claimed nearly $2.27 billion ($1.13 billion Federal share) in Medicaid
reimbursement for developmental center services. If the State had used prior year actual costs as
the starting point to calculate its Medicaid daily rate, its reimbursement would have totaled
$858 million ($429 million Federal share), a difference of $1.41 billion ($701 million Federal
share). Using the developmental centers’ prior year actual costs as the starting point, the

                                                                                        5
 SFY 2009 Medicaid daily rate would have been $1,532, or 63 percent less than the calculated
 reimbursement rate ($4,116). 7 (See Appendix A for how these rates were calculated.)

 Privately Operated Intermediate Care Facilities Providing Comparable Services in
 Similar Locations Had Significantly Lower Reimbursement Rates

 The Medicaid daily rate for developmental centers was substantially higher than the rate for
 privately operated ICFs, even those that were in similar locations and that offered comparable
 services. During our audit period, the Medicaid daily rate for residents of BDC, the largest
 developmental center in the State, was $4,116 per day (including day treatment services). 8 In
 comparison, the approved Medicaid daily rate for residents of a privately operated ICF that
 operated three facilities within 10 miles of BDC ranged from $421 to $535 per day (including
 day treatment services)—approximately one-eighth of BDC’s rate.

 We randomly selected 10 BDC residents and 10 privately operated ICF residents and reviewed
 the residents’ Medicaid billing histories for our audit period. Based on our assessment, the array
 of services provided to residents of the privately operated ICF were comparable to the array of
 services provided to BDC residents; however, BDC’s Medicaid reimbursement rate was nearly
 10 times that of the privately operated ICF. Table 1 details our findings.

                Table 1: Comparison of Medicaid Services at a Developmental Center
                       and at a Privately Operated Intermediate Care Facility

                                                                                       Privately Operated
                                            Developmental Center
                                                                                   Intermediate Care Facility
Reimbursement Rate(s) 9                        $4,116 per day                         $421 to $535 per day
Therapies Included in                      Occupational therapy                       Occupational therapy
Reimbursement Rate(s)                         Physical therapy                           Physical therapy
                                           Psychologist services                      Psychologist services
                                       Speech and language pathology              Speech and language pathology
                                                Social work                                Social work
                                           Dietetics and nutrition                    Dietetics and nutrition
                                         Rehabilitation counseling                  Rehabilitation counseling
                                              Nursing services                          Nursing services
                                               Day treatment                              Day treatment
Annual Billings per                          Low: $1,489,623                             Low: $99,120
Resident                                     High: $1,502,172                            High: $149,670




 7
  Other than the starting point, we included the same additional rate calculation components that the State used to
 calculate its SFY 2009 rate.
 8
     During our audit period, BDC provided services to 306 Medicaid beneficiaries.
 9
     Rates in the table include developmental center or privately operated ICF services and day treatment services.

                                                             6
  Rate-Setting Methodology Significantly Inflates Medicaid Daily Rate for
  Developmental Centers

  Developmental center rates do not reflect the State’s actual costs. A developmental center’s rate
  is currently calculated by using a starting point that the State describes as “total reimbursable
  operating costs,” which includes the following components: the prior year’s total reimbursable
  operating costs, a volume variance adjustment, and a trend factor increase. The volume variance
  adjustment was intended to ensure that annual decreases in headcount at a developmental center
  did not cause a center to lose operating funds needed to support its fixed costs. The volume
  variance adjustment achieved this by allowing the State to retain 64 percent of the costs
  associated with beneficiaries no longer in a developmental center. 10 The trend factor increase, as
  described in the State plan, is developed by OPWDD. 11 The State’s daily rate for developmental
  centers was inflated by including the volume variance adjustment and the trend factor increase
  from prior years in the total reimbursable operating costs (starting point) for the current year.
  The significant inflation of the rate is illustrated in the graph on page 5. (See Appendix A for
  additional rate calculation components.)

  We compared reimbursable operating costs for SFYs 2007 through 2009 to the developmental
  centers’ actual costs. As illustrated in Table 2, the starting point of each annual rate calculation
  was more than three times the developmental centers’ actual costs.

                        Table 2: Starting Point of Annual Rate-Setting Calculation

State                                                                Reimbursable
             Reimbursable Operating Costs Components                                        Prior Year        Percent
Fiscal                                                              Operating Costs
                         (Starting Point)                                                  Actual Costs      Difference
Year                                                                (Starting Point)
             SFY 2006 Total Reimbursable Operating Costs             $1,708,886,277
                    Volume Variance Adjustment                         $(2,309,772)
2007
                   Trend Factor Increase (x 5.33%)                      $90,960,528
                      SFY 2007 Starting Point                        $1,797,537,033        $518,641,250        347%
             SFY 2007 Total Reimbursable Operating Costs            $ 1,797,537,033
                    Volume Variance Adjustment                         $(3,643,034)
2008
                   Trend Factor Increase (x 3.03%)                      $54,354,988
                      SFY 2008 Starting Point                        $1,848,248,987        $547,242,147        338%
             SFY 2008 Total Reimbursable Operating Costs             $1,848,248,987
                    Volume Variance Adjustment                           $2,288,332
2009
                   Trend Factor Increase (x 2.97%)                      $54,960,959
                      SFY 2009 Starting Point                        $1,905,498,278        $580,689,833        328%




  10
       New York State Plan, Attachment 4.19-D, Part II, page 6.
  11
    New York State Plan, Attachment 4.19-D, Part II, page 39. According to the State, OPWDD sets the trend factor
  by using estimated current price movement related to wages, salaries, and employer costs for employee benefits and
  costs other than labor for the applicable fiscal year for “voluntarily operated residential health care facilities.”

                                                            7
Centers for Medicare & Medicaid Services Did Not Adequately Consider the Impact of
State Plan Amendments on the Medicaid Daily Rate for Developmental Centers

CMS approved more than 35 SPAs related to the ICF rates, including some that pertained only to
developmental centers. CMS reviewed the proposed SPAs and, in some cases, asked the State
for additional information to address concerns it had about the rate-setting methodology.
However, CMS’s efforts did not prevent the rate from increasing to its current level, which might
not be consistent with efficiency and economy.

POTENTIAL COST SAVINGS

If CMS had ensured that the State’s rate-setting methodology for developmental centers resulted
in a rate that was consistent with efficiency and economy, the Federal Government might have
saved approximately $701 million in SFY 2009.

RECOMMENDATION

We recommend that CMS work with the State to ensure that the State’s Medicaid daily rate for
developmental centers meets the Federal requirement that payment for services be consistent
with efficiency and economy. Use of such a rate might have saved the Federal Medicaid
program approximately $701 million in SFY 2009.

DEPARTMENT OF HEALTH AND
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, DOH stated that it, along with OPWDD, agreed to work
with CMS to ensure that the State’s Medicaid daily rate for developmental centers meets the
Federal requirement that payment for services be consistent with efficiency and economy. In
separate comments, CMS concurred with our recommendation and stated that it was working
with State officials to develop a revised payment methodology that will result in developmental
center payment rates that are consistent with efficiency and economy. DOH’s and CMS’s
comments are included in their entirety as Appendixes B and C, respectively.




                                               8
APPENDIXES
        APPENDIX A: CALCULATION OF THE STATE FISCAL YEAR 2009
                        MEDICAID DAILY RATE

                                                                   OIG
                 Rate Component            State Calculation
                                                               Recalculation
          Total Reimbursable Operating
           Costs as of 3/31/08 Excluding
           Any Education Costs                $1,905,498,278
          Total Reported Developmental
           Center Costs - 3/31/08
           (SFY 2008)                                           $580,689,833
          “Volume variance” adjustment
           (Decrease per day @
           36 percent variable costs
           removed)                             ($5,424,122)     ($5,424,122)
          Subtotal (Post-Adjustment)          $1,900,074,156    $575,265,711
          Trend Factor (3.52 percent)            $66,882,610      $20,249,353
          “Closure Incentive Plan”
           Payment Adjustment                     $4,092,608       $4,092,608
          Other Adjustments/Accruals            ($3,704,481)     ($3,704,481)
          Revised Operating Costs After
          Rate Period Adjustments             $1,967,344,893    $595,903,191
          Health Care Enhancement               $182,425,990    $182,425,990
          Total Reimbursable Operating
          Costs                               $2,149,770,883    $778,329,181
          Capital                                $30,173,772     $30,173,772
          Estimated Gross Receipts
           (OPWDD Costs)                      $2,179,944,655    $808,502,953
          Tax Assessment (5.5 percent)         $119,896,956      $44,467,662
          OPWDD Reimbursable
           Operating Costs                    $2,299,841,611    $852,970,615
          Education Costs (provided by
           State Education Department)            $4,753,984      $4,753,984
          Total Reimbursable Costs            $2,304,595,595    $857,724,599
          Days                                       559,974         559,974
          SFY 2009 Medicaid Daily Rate                $4,116          $1,532


OIG = Office of Inspector General
OPWDD = Office for People With Developmental Disabilities
SFY = State fiscal year
                                                                                                                         Page 1 0f 2


       APPENDIX B: DEPARTMENT OF HEALTH COMMENTS 



                                         NEW YORK
                                             sla lt dtpn rlmt nl of

Nlrav R. Shah, M.D., M P.H.
ComnliSSloner
                                         HEALTH                                      E~ecuti ve
                                                                                                            Sue Kelly
                                                                                                  Depu ty CommiSSlonef




                                                                 March 26, 2012




James P. Edert
Regional Inspector General fo r Audit Services
Department of Health and Human Services
Region II
Jacob Jav itz Fcderal 13uil di ng
26 Federal Plaza
New York, New York 10278

                                                                 Ref. No. A-02- 11-0 1029
Dear Mr. Edert:

       Enclosed ar~ the New York State Department of Health's comments on the Department
of Health and Humrn Services, Office of Inspector General's draft audit report A-02- II -O1029
on "Medicaid Ratci for New York State Deve lopmental Centers May l3e Excessive. "

        Thank you for the opportunity   \0   comment.




                                                                  Deputy Director
                                                                     for Administration
Enclosure

cc:     Jason Helgerson
        James C. Cox
        Diane Chri ~tenscn
        .l ames MorJn
        Vincent Sleasman
        Stephen Abbott
        Dennis Wende ll
        Stephen La Casse
        Irene Myron
        Ronald Farre ll

                                             HEALTH.NY.GOV
                                               lK9book.com/NYSOOH
                                             l...... no•. com/H. .. lthNYGo\/
                                                                                                       Page 20f2




                     New York State Department of Health's 

                                Comments on the 

                   I)epartment of Health and Human Services 

                    I     Office of Inspector General's 

                      Draft Audit Report A-02-11 -01029 on 

                      "Medicaid Rates for New York State 

                   ?evelopmental Centers May Be Excessive" 


                    I
 The following arc the New York State Department of Health's (Department) comments in
 response to the Dc~at1mcnt  or   Ilcalth and Iluman Services, Office ( )f Inspector General's (OIG)
 draft audit report A-02- 11 -01 029 on " Medicaid Rates for New York State Developmental
,Centers May Be Excessive."

Recommendation #1:

We recommend     thlte MS work with the State to ensure that the State's Medicaid daily ratc for
developmental centers meets the federal requirement that payment for services be consistent
with efficiency and economy. This could have potentially saved the Federal Medicaid program
approximately $701 million in SFY 2009.

Response #1:

The Department and the NYS Office for People With Developmental Disabilites (OPWDD)
agree to work withlthe Centers for Medicare & Medicaid Services (eMS) to ensure that the
State's Medicaid daily rate for developmental centers meets the Federal requirement that
payment for $crvicbs be consistent with efficiency and economy.
APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 



      ..... ..
          ~'




  (~J-
     <"
  ,"'-	
                       DEPARTMENT OF HEALTH & HUMAN SERVICES
                       ~~~~~------------------------------
                                                                                              Ad",inistrlltor
                                                                                              WasIIlnglon, DC 20201
                 DATE:           MAR 14 1IJll
                 TO:


                 FROM:


                 SUBJECT: 	 Ollice of In s~clor General (O IG) Draft Report: "Medicaid Rales for New York
                            State Developmental Centers May Be Excessive" (1\- 02-11-0 1029)


                 Thank you for the opportunity to review and comment on the OIG Draft Report entitled:
                 "Medicaid Rales for New York State Developmental Centers May Be Excessive" (A- 02-11­
                 01029). New York State developmental ceOiers, which include Inlenncdiale Care Facilities,
                 provide inpatient services to Medicaid clients with developmental disabi lities. New York"s
                 Office for People with Developmental Disabilities (OPWDD) oversees the developmental
                 centers and is respons ible for selling their Medicaid payment rates. T his repon examined
                 Medicaid payments rates set by OPWDD and determined that th e reimbursement level provided
                 10 State deve lopmental centers may not have met the Federal requirement that payment for
                 services be consistent with efficiency and economy. OIG estimated that ifOPWDD had set rates
                 based on more recently reponed provider COSt information, the Federal Medicaid program could
                 have saved approximately $701 million in Federal Financial Panicipalion in Slate Fiscal Year
                 2009.

                 DIG Recomlllcndlition :

                 Thc OIG recommends th at eMS work with New York to ensure that the State"s Medi(;aid daily
                 rate for developmental centers meets the Federal requirement that payment tor services be
                 consistent with efliciency and economy.

                 eMS Res ponse:

                 We concur. "Ibe Centers fo r Medicare & Medicaid Servi(;es is working with Stale officials to
                 develop a rcvised institutional payment methodology that will result in rales for New York's
                 developmemal centers to assure Medicaid payments arc consistent with efficiency and economy.

                 We appreciate the efTon that went into this report and look fOlWard to working wi th OiG on this
                 and other is.~ucs.
